 Office of Inspector General

       Audit Report

FAA IS NOT EFFECTIVELY MANAGING AIR
   TRAFFIC CONTROLLER MID-TERM
      BARGAINING AGREEMENTS
      Federal Aviation Administration

       Report Number: AV-2014-059
        Date Issued: June 19, 2014
           U.S. Department of
                                                                Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: FAA Is Not Effectively Managing                                      Date:   June 19, 2014
           Air Traffic Controller Mid-Term Bargaining
           Agreements
           Federal Aviation Administration
           Report No. AV-2014-059

  From:    Matthew E. Hampton                                                       Reply to
                                                                                    Attn. of:   JA-10
           Assistant Inspector General
            for Aviation Audits

    To:    Federal Aviation Administrator

           The Federal Aviation Administration’s (FAA) management of its air traffic control
           (ATC) workforce—one of the Agency’s largest cost drivers—depends on effective
           coordination and negotiation with the National Air Traffic Controllers Association
           (NATCA). In March 2012, FAA and NATCA agreed to extend their existing
           collective bargaining agreement (CBA) until July 2016. The agreement addressed
           various union employee concerns, such as work schedules and equitable pay, and
           extended the original 3-year CBA that became effective October 1, 2009.

           Our prior work found that FAA had poor controls over effectively managing mid-
           term bargaining agreements with its air traffic controllers, resulting in significant
           unanticipated costs. For example, in 2003 1 we identified hundreds of Memoranda
           of Understanding (MOUs), negotiated primarily at individual facilities, that
           resulted in $23 million in overtime costs, $1.8 million in cash awards, $30 million
           in additional salary incentives, and 65,000 hours in time off awards. We reported
           that unless effectively managed, these types of agreements could lead to future
           unexpected cost increases. In response to our report, FAA instituted a series of
           internal controls, including requiring that all MOUs be reviewed by senior Agency
           officials prior to agreement and include an estimate of their potential cost impact.




           1
            FAA’s Management of and Control Over Memorandums of Understanding (OIG Report No. AV-2003-059),
           September 12, 2003. OIG reports are available on our Web site at http://www.oig.dot.gov.
                                                                                                                     2


In 2011, 2 we again reported that FAA continued to experience problems in
overseeing its air traffic controller labor agreements and could not reliably
estimate the costs of all provisions included in its 2009 CBA with NATCA. We
identified numerous provisions that could escalate costs far beyond FAA’s original
estimates and made several recommendations for further improving FAA’s
controls over the CBA.

Based on our prior findings, we initiated this audit to review provisions of the
2012 CBA extension between FAA and NATCA and FAA’s controls over the
agreement. Specifically, our objectives were to (1) identify provisions of the 2012
CBA extension that put FAA at risk of unanticipated cost escalations and
(2) assess the effectiveness of FAA’s policies, procedures, and internal controls in
preventing cost escalations associated with the 2012 CBA extension. Exhibit A
provides details on our scope and methodology.

RESULTS IN BRIEF
FAA has incurred unanticipated costs and remains at risk of further cost increases
primarily due to two provisions in the 2012 CBA extension: (1) mid-term
bargaining 3 and (2) the rules for setting pay. 4 Although both provisions serve
legitimate purposes, they can leave the Agency vulnerable to unanticipated costs if
not effectively managed. First, even though FAA assumed that mid-term
bargaining would not increase costs, we identified several costly mid-term
bargaining agreements negotiated between FAA and NATCA. For example, FAA
negotiated an MOU increasing pay at three air traffic control towers located within
the New York metropolitan area based on an increase in air traffic at LaGuardia
airport. This agreement resulted in $1.3 million in back pay and $16 million in
additional pay over 10 years not only for controllers at LaGuardia, but also for
controllers at John F. Kennedy and Newark air traffic towers. However,
LaGuardia was the only control tower of the three that had the increased traffic
volume and complexity to justify the pay increase. Second, the CBA’s rules for
setting pay put the Agency at risk of cost increases because they depend on
complex calculations with some degree of subjectivity that must be performed at
each of FAA’s 316 facilities (which increases the risk of miscalculations). These
rules also pose risks because controller pay is a significant portion of FAA’s
Operations budget. 5 As a result, any unanticipated cost increases from these


2
  FAA Needs To Strengthen Controls Over the 2009 FAA/NATCA Collective Bargaining Agreement (OIG Report No.
AV-2011-120), June 9, 2011.
3
  Article 7, NATCA CBA Extension. FAA’s agreement with NATCA states that personnel policies not explicitly
contained in the CBA shall not be changed without prior negotiation (i.e., mid-term bargaining) with NATCA.
4
  Article 108, NATCA CBA Extension, 2012.
5
  FAA’s Operations budget consists of approximately 59 percent of FAA’s total budget. Operations funds most of the
Agency’s day-to-day activities, including safety oversight and air traffic control functions. Salaries and benefits for
controllers, safety inspectors, and other FAA personnel make up 71 percent of FAA’s Operations costs.
                                                                                                               3


provisions could crowd out funding for other critical items in FAA’s Operations
budget, such as maintaining air traffic facilities and conducting safety inspections.

FAA’s internal controls have not effectively controlled cost increases from the
2009 CBA or its 2012 CBA extension, partially because FAA Headquarters has
not followed its own established policies. FAA’s internal control policies require
each negotiated agreement to have a budget analysis and legal review and be
included in the Labor Employee Relations System (LERIS). 6 Yet, of the
40 national negotiations between FAA Headquarters and NATCA since 2009,
none were entered into LERIS, and only 1 received a budget analysis before FAA
and NATCA reached agreement. This occurred partly because the Agency lacks a
mechanism for holding managers accountable for adhering to these requirements.
In addition, some local facility agreements did not receive required legal reviews,
and their required budget analyses were often inadequate due to a lack of expertise
in budget analysis and labor negotiations among facility managers. For example,
the CBA extension requires each FAA facility manager to negotiate certain local
agreements each year. However, we found that facility managers often renewed
the previous year’s agreements without conducting analyses to determine whether
any changes in local facility factors (such as traffic volume or airline schedules)
would also impact controller workload and pay requirements for the new year.
Ultimately, because FAA has not followed its established internal controls, the
total number of mid-term agreements and their true cost impact remains unknown.

We are making a series of recommendations to increase FAA’s management and
oversight of the provisions of the 2012 CBA extension.

BACKGROUND
NATCA is the labor union representing FAA’s air traffic controllers and is
authorized by law to engage in collective bargaining on behalf of that workforce
with FAA. The FAA Reauthorization Act of 1996 expanded the scope of these
negotiations by requiring that FAA negotiate issues that were previously not
negotiable at Federal agencies, including staffing, compensation, and benefits. In
1998, FAA and NATCA entered into the first 5-year national CBA that addressed
issues including pay and benefits for controllers. However, the cost of this
agreement far exceeded FAA’s initial $200 million estimate, eventually costing
over $1 billion for the 5-year term. The agreement also allowed FAA managers
and NATCA representatives to enter into written agreements or MOUs that were
not expressly addressed by the national CBA through a mid-term bargaining
process.


6
 The LERIS database contains a record of negotiations between FAA and its labor unions. The LERIS records contain
data on the subject, costs, outcomes, and personnel involved in all labor negotiations.
                                                                                  4


The 1998 CBA was extended past its 2003 expiration date while FAA and
NATCA attempted to negotiate a new labor agreement. However, after
negotiations failed in 2006, FAA submitted its last offer to Congress, as required
by law. When Congress did not take action within the 60-day period, FAA
imposed its last offer. These work rules, referred to as the 2006 work rules,
lowered the pay bands that set new controller pay and significantly lowered pay
for controllers hired after 2006.

On September 23, 2009, FAA and NATCA agreed to a new CBA that was to
remain in effect until September 2012. FAA estimated that the 2009 CBA would
cost $669 million over and above what it would have cost had the 2006 work rules
been extended for 3 more years. On October 1, 2012, FAA and NATCA agreed to
extend the 2009 CBA through July 1, 2016.

FAA RISKS UNANTICIPATED COSTS DUE TO MID-TERM
BARGAINING AND PAY-SETTING PROVISIONS IN THE CBA
FAA continues to risk unanticipated costs due to the CBA’s provisions for mid-
term bargaining agreements and the rules for setting pay. While both provisions
serve legitimate purposes, we found that some nationally negotiated agreements
resulting from these provisions have resulted in unanticipated cost increases.
Ultimately, unanticipated costs from these provisions increase the risk of
controller pay and benefits growing faster than FAA’s Operations budget, which
could crowd out other critical Agency requirements.

Mid-Term Bargaining and Complex Rules for Setting Pay Put FAA at
Risk for Cost Escalations
We determined that the CBA’s provisions related to mid-term bargaining and pay
can leave FAA at risk for cost increases. Although both provisions are components
of the CBA, they can leave the Agency vulnerable to unanticipated costs if not
effectively managed. Specifically:
•   Mid-Term Bargaining (Article 7)—The 2012 CBA extension states that
    personnel policies, practices, and matters affecting working conditions not
    specifically mentioned in the national CBA shall not be changed by FAA
    without prior notice to, and negotiation with, NATCA in accordance with
    applicable law. Therefore, before FAA can make any changes to the terms and
    policies of the CBA, the changes must be negotiated. For example, developing
    procedures for staffing special air traffic events and changing the office space
    used for union activities are subject to mid-term bargaining.

    In the cost analysis for the 2009 CBA, FAA assumed that mid-term bargaining
    would be carefully managed and would not increase costs. However, we found
    that the mid-term bargaining provision allows facility managers to reach
                                                                                                                  5


    expensive agreements with NATCA prior to consulting labor relations or
    conducting a budget analysis. These negotiations may result in increases in pay
    and other labor costs that may not be cost effective, especially if managers do
    not follow internal controls such as conducting a budget analysis prior to
    agreement.

•   Pay (Article 108)—The CBA states that bargaining unit employees will have
    their pay determined by the ATC classification of the facility in which they are
    assigned. ATC facility levels have been established using a formula based on
    traffic complexity and volume for each air traffic facility. 7 This formula
    accounts for the volume and type of air traffic, the variety of air traffic services
    provided, the type of military and civilian airports nearby, and other
    characteristics of air traffic at a specific facility.

    The Pay provision creates the risk for unexpected cost increases in part because
    it is complex, which increases the risk of miscalculations. Specifically, the
    policy describing how to compute the ATC facility level is 42 pages long and
    must be calculated separately for each of FAA’s 316 air traffic facilities as it
    relies on extensive data that varies by location. In addition, the process of
    changing pay—which is specified in an MOU—contains weaknesses.
    Controllers and managers at the facility must collect data on traffic volume and
    compute traffic count metrics, and then a national validation team reviews and
    validates the data. However, this validation team consists of both NATCA
    members and FAA officials who do not work at the facility. While working in
    conjunction with the union provides for improved labor/management relations,
    there are certain inherent risks. For instance, using NATCA members as part of
    a validation team for air traffic controller pay adjustments may contribute to
    cost risks because it requires bargaining unit employees to make decisions that
    impact the pay of other employees in the bargaining unit.

Some Nationally Negotiated Agreements Are Not Cost Effective
Mid-term bargaining agreements can serve legitimate purposes, such as scheduling
local operations and implementing local changes in working conditions. However,
these agreements can also contain substantial cost and/or operational implications
for the Agency. We identified 40 nationally negotiated MOUs between FAA and
NATCA, all of which apply to the 2012 CBA extension. Some of these MOUs
resulted in significant and previously unanticipated costs for the Agency. For
example:
• Metropolitan Tower Complex MOU—This MOU revised the formula for
  setting the ATC level for tower facilities located within a major metropolitan

7
  The formula for setting ATC facility levels contains a sustained traffic index, a traffic count index, and several
adjustments based on specific facility characteristics.
                                                                                    6


    area. Because ATC levels determine controller salary at a given facility, any
    revision to a facility’s ATC level can significantly increase FAA’s labor costs.
    Under the revised formula, each tower’s ATC level is first calculated
    independently. Then, the highest ATC rating given to one tower is given to all
    nearby towers within 1 ATC level of each other—even though they may not
    technically have the traffic volume or complexity to support the new ATC
    rating. Through this MOU, FAA awarded $1.3 million in back pay (retroactive
    to May 12, 2011) to controllers at three facilities in the New York Area—the
    control towers at LaGuardia, John F. Kennedy, and Newark, even though only
    LaGuardia qualified for the raise. Furthermore, this change is projected to cost
    an additional $16 million in controller salaries over 10 years. FAA did not
    anticipate these added costs or conduct a required budget analysis prior to the
    agreement with NATCA.

•   Facility Level Adjustment MOU—This MOU governs the procedures for
    changing facility levels and corresponding pay. When a facility receives an
    ATC level upgrade, back pay is issued to all controllers retroactive to the date
    the facility first had the traffic and complexity to justify the upgrade. However,
    when a facility receives an ATC level downgrade, controllers receive no
    corresponding reduction in pay. FAA did not complete a budget analysis of this
    MOU, and the true cost implications are still unknown.

In assessing the potential costs of the 2009 CBA, FAA assumed that no costs
would be associated with mid-term bargaining agreements because these
negotiations would be carefully managed. However, this assumption has proven
invalid, resulting in all costs associated with mid-term bargaining agreements
being unanticipated by FAA. Furthermore, the Agency will remain at risk of
continued unanticipated cost increases associated with these agreements
throughout the remainder of the 2012 CBA extension.

Unanticipated Mid-Term Bargaining Costs Increase Risks for FAA’s
Operations Budget
Given the large impact of controller pay and benefits on the Agency’s
multibillion-dollar annual Operations budget, any unanticipated increase in pay
and benefits resulting from the 2012 CBA provisions can impact FAA’s
Operations budget as a whole. This is of particular concern given the current trend
of controller pay and benefits increasing faster than the amount allotted for them
in FAA’s budget.

For example, in fiscal year 2012, FAA spent $2.75 billion on salaries and benefits
for controllers, or over 28 percent of its Operations budget. FAA’s Operations
budget has increased by 82 percent since fiscal year 1998, while pay and benefits
for controllers have increased 95 percent during the same period (see figure 1
                                                                                         7


below). As a result, if controller pay and benefits grow faster than FAA’s
Operations budget, FAA risks controller pay and benefits crowding out funding
for other critical Agency requirements, such as maintaining air traffic facilities and
conducting safety inspections. While FAA’s 2012 CBA extension is only one
factor in the Agency’s rising controller workforce costs, effective use of internal
controls, such as budget analysis and legal reviews, could help FAA avoid
unnecessary and unanticipated expenses related to controller pay and benefits.

Figure 1. Growth of Controller Pay and Benefits vs. Growth of
FAA Operations Budget
 100%                        1998 CBA               2006 Work Rules
  90%
  80%
  70%
  60%                                                                         2009 CBA

  50%
  40%
  30%
  20%
  10%
   0%



                        FAA Operations Budget   Controller Pay and Benefits

Source: OIG analysis based on FAA data.


FAA HAS NOT FOLLOWED ITS ESTABLISHED PROCEDURES
FOR MANAGING NEGOTIATIONS WITH NATCA
FAA’s internal controls for managing negotiations with NATCA are ineffective
because the Agency has not strictly followed its established procedures, especially
conducting the required budget analysis and legal reviews on all MOUs prior to
the agreement. In addition, the budget analysis conducted by the facility managers
for local agreements may not capture the actual expense of the agreement.

FAA Has Not Adhered to Internal Controls Governing Nationally
Negotiated MOUs
In response to our 2003 audit, FAA made significant changes to the Agency’s
process for negotiating MOUs reached through mid-term bargaining. FAA issued
Order 3710.18, which instituted a series of required internal control procedures.
                                                                                    8


These procedures included requiring legal reviews by Agency officials,
conducting a budgetary analysis of MOUs prior to signature, and including all
agreements in the LERIS database that tracks all FAA negotiations with labor
unions. However, for all of the 40 national MOUs we reviewed, FAA did not
follow the internal control procedures required by the Order. Specifically:

•   FAA officials did not conduct required budget analyses. FAA requirements
    state that the Office of the Chief Financial Officer or a delegate is responsible
    for conducting budget analyses for every proposed agreement. Budget analyses
    are one of FAA’s primary means of determining the financial impacts of mid-
    term bargaining agreements, as they assess the cost and affordability of an
    agreement relative to anticipated funding levels. As such, they are a critical
    component of FAA’s efforts to monitor and control costs associated with mid-
    term agreements. However, we found that 39 of the 40 national MOUs
    contained no budget analysis prior to agreement. Some of these agreements are
    potentially costly, but without a budget analysis, it is not possible to determine
    what their cost impacts are on FAA. We found no examples of disciplinary
    action taken against any management official for not following this
    requirement.

•   FAA did not document all mid-term agreements as required. According to
    FAA requirements, copies of all current and future national, regional, and local
    agreements must be sent to the Director of Labor and Employee Relations for
    inclusion into the LERIS database. FAA’s LERIS database helps track the cost
    implications and other factors related to its negotiations with labor unions.
    However, we found that none of the 40 national MOUs we reviewed had been
    entered into the LERIS database. As a result, FAA lacks a complete central
    record of the number and total cost implications of its negotiated agreements
    with NATCA since the 2012 CBA extension.

•   Local facilities did not always coordinate with required labor and legal
    officials. FAA’s requirements state that managers are responsible for ensuring
    that labor agreements meet all legal requirements. In addition, FAA requires
    that all notices to/from unions concerning collective bargaining matters must
    be coordinated with an Assistant Administrator for Human Resources (AHR)
    Labor Management Relations (LMR) representative prior to beginning
    negotiations. However, our interviews with facility managers found that many
    facility managers reached agreements with NATCA without consulting either
    of these organizations. According to FAA officials, this was due in part to
    confusion about FAA’s internal control responsibilities at the local level. For
    example, the FAA Labor and Employee Relations Office and the FAA Labor
    Technical Liaison (which is part of the Air Traffic Organization) both have
    roles in the legal review process for agreements that are negotiated at the
                                                                                   9


   facility level. However, the lines of authority between these two offices were
   unclear, and their responsibilities often overlapped. As a result, some of the air
   traffic managers we met with were not sure which office had the authority to
   perform the required legal reviews.

These lapses occurred in part because FAA lacks a mechanism for holding
managers accountable for adhering to its internal control requirements. Notably,
we did not find any examples of disciplinary action against managers responsible
for ignoring these internal controls, even though failing to comply with these
controls can often result in unanticipated additional costs for the Agency.
Ultimately, because FAA has not followed its established internal controls, the
total number of mid-term agreements and their true cost impacts remain unknown.

Budget Analyses Conducted by the Facility Managers for Local MOUs
May Not Capture the Expense of the Agreement
Although FAA requires that air traffic facility managers conduct budget analyses
for local agreements, we found that these managers’ analyses did not always
capture the full cost of an agreement. For example, the CBA extension requires
each FAA facility manager to negotiate local agreements governing the basic
watch schedule, selection procedures for overtime opportunities, controller-in-
charge selection procedures, and prime time leave. Some local factors can
significantly change each year at a facility, such as traffic, airline schedules, and
others, which could impact controller workloads and pay. However, we found that
FAA managers generally re-use their local agreements each year with little
analysis, aside from the experience of the facility manager. This limits FAA’s
opportunities to identify potential improvements in staffing efficiency and reduce
overtime costs.

Moreover, FAA lacks a standard method for conducting comprehensive cost
analysis for negotiated agreements at the local facility level. Instead, air traffic
managers rely on their experience and knowledge of the facility operation to
prepare a budget analysis for these mandatory agreements, and the approach to
conducting this analysis varied considerably between facilities. The most common
approach to the analysis was to renew prior agreements and indicate that there
were no additional costs because the agreement had not changed from prior years.

Additionally, there is a lack of training and other support to assist facility
managers while negotiating with the local NATCA representatives. The CBA
extension allows air traffic facility managers the discretion to bargain with
NATCA over subjects not specifically required by the CBA extension. However,
if facility managers are not effectively trained on FAA’s internal controls, they
may be unable to ensure that their use of these controls is as effective as possible.
For example, we identified significant issues with the budget analysis and other
                                                                                    10


procedures conducted for one local facility-level agreement at the Washington Air
Route Traffic Control Center. For this agreement, the facility’s air traffic manager
negotiated a MOU providing 40-hour time off awards to about 440 employees for
completing a required airspace redesign. The budget analysis conducted by the
facility manager indicated that the MOU would be cost effective. However, during
the period covered by this MOU, FAA incurred almost $2 million in additional
salaries and benefits and over $5 million dollars in extra overtime—even though
the time controllers spent controlling traffic and performing other duties did not
change significantly. Therefore, even though this MOU had a required budget
analysis, the analysis did not capture the cost implications or effectively justify the
additional expense from the MOU. This suggests that air traffic facility managers
are not adequately familiar with negotiation skills and legal responsibilities to
evaluate complex labor agreements for cost implications.

CONCLUSION
While FAA’s air traffic controllers provide an essential service to the Nation,
controller salaries and benefits are one of the Agency’s largest cost drivers. Mid-
term bargaining over pay and other items is a necessary aspect of FAA’s collective
bargaining agreements with NATCA and its management of its air traffic control
workforce. Without careful management and oversight of its policies and controls,
FAA will continue to incur unwarranted or unplanned costs and will not know the
true extent and costs of its bargaining agreements.

RECOMMENDATIONS
To increase its oversight of the CBA extension and reduce unanticipated costs, we
recommend that FAA:

1. Develop a process that ensures all national, regional, and local managers are
   held accountable when the requirements of FAA Order 3710.18 are not strictly
   followed.

2. Revise standard operating procedures to strictly enforce the involvement of
   Labor Relations Office (AHR-LMR) representatives during all mid-term
   bargaining prior to committing the Agency.

3. Clarify the roles and responsibilities of the Labor Relations Office (AHR-
   LMR) and the Labor Technical Liaison.

4. Provide refresher training to air traffic managers that interact with NATCA on
   labor relations management, including legal responsibilities and negotiation
   skills.
                                                                               11


AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided FAA with our draft report on April 16, 2014, and received its formal
response on June 3, 2014, which is included in its entirety as an appendix. In its
response, FAA fully concurred with all four recommendations and provided
reasonable timeframes for completing the appropriate action plans. Based on
FAA’s response, we consider all four recommendations resolved but open pending
completion of the planned actions.

We appreciate the courtesies and cooperation of FAA representatives during this
audit. If you have any questions concerning this report, please call me at (202)
366-0500 or Bob Romich, Program Director, at (202) 366-6478.

                                        #

cc:   DOT Audit Liaison, M-100
      FAA Audit Liaison, AAE-100
                                                                                    12

EXHIBIT A. SCOPE AND METHODOLOGY
We conducted this audit from April 2013 to April 2014 in accordance with
generally accepted Government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide
a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the audit evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives. Our site visits included the
Federal Aviation Administration (FAA) Headquarters, the Eastern Regional
Office, the Western Pacific Regional Office, and 9 air traffic facilities. (For a full
list of the organizations we visited or contacted, see exhibit B.)
To determine which provisions in the 2009 CBA and its 2012 extension put FAA
at risk for cost increases, we reviewed prior OIG reports and interviewed FAA
officials from the Office of Labor Relations, the Office of Labor Analysis and the
Air Traffic Office Labor Liaison. Based on these interviews and the study of prior
FAA cost escalations, we determined which provisions of the 2012 CBA
Extension were most likely to increase costs.
To determine the number of MOUs implemented and their costs, we requested
copies of all the national agreements signed since fiscal year 2009 and analyzed
the legal, operational, and cost implications for the 40 we were given. Then we
checked to determine whether these agreements were maintained in LERIS, had a
budget analysis by the Office of the Chief Financial Officer or designee, and the
correct Labor Relations officials had reviewed the agreement prior to signature.
We randomly selected four of FAA’s nine regional offices and reviewed records
of negotiations with NATCA. We visited two of the four regional offices based on
geography and interviewed labor relations staff and managers. Then, we reviewed
records of negotiations with NATCA for the air traffic facilities serviced by the
regional offices. Then we visited local air traffic facilities serviced by the Regional
offices and interviewed facility managers, staff managers and NATCA
representatives. Finally, we collected copies of the labor agreements we were
given at each facility and compared the agreements with those collected at the
Regional Offices. Ultimately, we were unable to establish a universe for FAA
negotiations with NATCA because of undocumented verbal agreements and
ineffective internal controls.




Exhibit A. Scope and Methodology
                                                            13

EXHIBIT B. ORGANIZATIONS VISITED OR CONTACTED

Washington Air Route Traffic Control Center (ZDC)

Southern California Terminal Radar Approach Control (SCT)

LaGuardia Air Traffic Control Tower (LGA)

John F. Kennedy Air Traffic Control Tower (JFK)

New York Terminal Radar Approach Control (N90)

New York Air Route Traffic Control Center (ZNY)

Los Angeles Air Route Traffic Control Center (ZLA)

Los Angeles Air Traffic Control Tower (LAX)

San Diego Air Traffic Control Tower (SAN)

FAA Eastern Regional Office

FAA Western Pacific Regional Office




Exhibit B. Organizations Visited or Contacted
                                                                     14


EXHIBIT C. MAJOR CONTRIBUTORS TO THIS REPORT


Name                                           Title

Robert Romich                                  Program Director

Adrienne Williams                              Project Manager

Benjamin Huddle                                Senior Analyst

Andrew Sourlis                                 Analyst

Seth Kaufman                                   Senior Counsel

Petra Swartzlander                             Senior Statistician

Audre Azuolas                                  Writer/Editor




Exhibit C. Major Contributors to This Report
APPENDIX. AGENCY COMMENTS                                                                      15



                   Federal Aviation
                   Administration

Memorandum
Date:      June 3, 2014
To:        Matthew E. Hampton, Assistant Inspector General for Aviation
From:      H. Clayton Foushee, Director, Office of Audit and Evaluation, AAE-1
Subject:   Federal Aviation Administration’s (FAA) Response to Office of Inspector General
           (OIG) Draft Report: Air Traffic Controller Mid-Term Bargaining Agreements


During the 2009 contract negotiations with the National Air Traffic Controllers Association
(NATCA), the FAA conducted detailed and comprehensive analyses to estimate the financial
impact of the new collective bargaining agreement. These analyses were updated in 2012 to reflect
the terms of the contract extension through mid-2016. Over the past four fiscal years (2009-2013),
FAA’s annual forecasts for the personnel compensation and benefits costs under this contract have
proven to be consistently accurate 99 percent or more.

Controller pay and benefits have increased at a higher rate than the FAA operations budget since
1998. The vast majority of growth in air traffic controller labor costs over the past decade can be
directly attributed to: 1) increased staffing (due primarily to increased advanced hiring in FY06-
FY09 to address the expected post-strike retirement wave); and, 2) contractually obligated pay and
pay band adjustments per the 1998 and 2009 Collective Bargaining Agreements between FAA and
NATCA; 1998 ‘Green Book’ contract and the 2009 ‘Red Book’ contract.

While FAA does not believe that unmonitored memoranda of understanding (MOUs) have been a
primary driver of increased controller payroll, we do acknowledge that considerable work remains
to improve internal coordination, consistency, and documentation associated with Air Traffic Mid-
Term Bargaining Agreements.

RECOMMENDATIONS AND RESPONSES

OIG Recommendation 1: Develop a process that ensures all national, regional, and local
managers are held accountable when the requirements of FAA Order 3710.18 are not strictly
followed.

FAA Response: Concur. The FAA recently implemented a standard operating procedure (SOP)
with business rules for the entry of all MOUs into the Labor Employee Relations System. This
will allow for greater oversight of all negotiated agreements. Additionally, FAA has begun
conducting internal audits to determine whether or not internal coordination processes were


Appendix. Agency Comments
                                                                                               16

adhered to and budget analyses conducted prior to entering into mid-term agreements. The
internal audits are in a preliminary stage but have already identified areas the FAA can improve
tracking and reporting of mid-term agreements and completion of budget analyses. By
September 30, 2014, the FAA will formalize the internal audit process to include a recurring
frequency and reporting of results to the appropriate manager for remedial corrective action and
the FAA will provide an update to the OIG by December 31, 2014.

OIG Recommendation 2: Revise standard operating procedures to strictly enforce the
involvement of Labor Relations Office (AHR-LMR) representatives during all mid-term
bargaining prior to committing the Agency.

FAA Response: Concur. The associated SOPs will be reviewed and updated as necessary to
bring clarity to the requirement to involve the Labor Relations Office prior to entering into
negotiations and mid-term agreements, verbally or in writing. All managers will be briefed on
the requirements of FAA Order 3710.18, the associated SOPs, and expectations of its adherence.
The briefings will commence immediately following completion of any necessary updates to the
SOPs. It is anticipated that the updates and briefing to the SOPs will be completed by September
30, 2014.

OIG Recommendation 3: Clarify the roles and responsibilities of the Labor Relations
Office (AHR-LMR) and the Labor Technical Liaison.

FAA Response: Concur. The FAA will clarify roles and educate facility managers and Labor
and Employee Relations Specialists on the distinct responsibilities of the Labor Relations Staff
and the Air Traffic Organization (ATO) Labor and Employee Development staff as defined in
the Service Level Agreement between the Office of Human Resource Management and ATO,
dated February 19, 2008. Clarity on the distinct roles will be included in the aforementioned
briefing sessions, stated above in recommendation 2, regarding the internal coordination
requirements of FAA Order 3710.18.

OIG Recommendation 4: Provide refresher training to air traffic managers that interact
with NATCA on labor relations management, including legal responsibilities and negotiation
skills.

FAA Response: Concur. The FAA is evaluating existing training and methods available to
effectively provide negotiations training to facility managers that will include guidance for
conducting mid-term bargaining, procedures for ensuring legal compliance, and identification of
officials to engage prior to entering into negotiated agreements. Also, the FAA is currently
developing tools to assist managers in effectively completing budget analyses for consideration
before entering into agreements. The FAA will seek to develop an on-line eLearning
Management System course on FAA Order 3710.18 to train new managers. The FAA will
provide an update to OIG by December 31, 2014.




Appendix. Agency Comments
